Case: 20-2085

Document: 8

Filed: 08/06/2020

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
August 6, 2020
Before
FRANK H. EASTERBROOK, Circuit Judge
ILANA DIAMOND ROVNER, Circuit Judge
DAVID F. HAMILTON, Circuit Judge

No. 20-2085

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
BRADLEY M. COX,
Defendant - Appellant

Originating Case Information:
District Court No: l:18-cr-00083-HAB-SLC-l
Northern District of Indiana, Fort Wayne Division
District Judge Holly A. Brady

The following are before the court:
1.

MOTION FOR PRETRIAL RELEASE, filed on July 7, 2020, by the pro se
appellant.

2.

RESPONSE TO MOTION FOR RELEASE FROM DETENTION, filed on
July 20, 2020, by counsel for the appellee.

3.

REPLY TO APPELLEE'S RESPONSE, filed on July 30, 2020, by the pro se
appellant.

IT IS ORDERED that the appellant's motion for pretrial release is DENIED. The
district court's denial of Bradley Cox's motion for release is AFFIRMED.
form name: c7_Order_3J(form ID: 177)

^pPAA/fixX

I

A

USDC IN/ND case l:18-cr-00083-HAB-SLC document 146 filed 06/18/20. page 1 of 11

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
FORT WAYNE DIVISION
UNITED STATES OF AMERICA
v.
BRADLEY M. COX

)
)
)
)
)

Cause No. 1:18-CR-83-HAB

OPINION AND ORDER
The matter of Defendant Bradley M. Cox’s detention is not a new one to this Court. The
issue has resulted in multiple orders by two different magistrates, a seven-page Opinion and Order
by this Court, and a summary ruling by the Seventh Circuit. All have concluded that Cox’s pretrial
detention is proper. Undeterred, Cox is back before this Court on his Motion for Revocation of
Detention Order (ECF No. 136), asking this Court to review Magistrate Cherry’s original detention
order (ECF No. 16) under 18 U.S.C. § 3145(b). Because the Court finds no reason to depart from
Magistrate Cherry’s decision, Cox’s instant motion will be denied.
A.

Procedural History
As this Court said in its last ruling on Cox’s detention, “Defendant’s Motion is a

complicated web of interconnected and incorporated filings,” stretching from his initial detention
until today. (ECF No. .103 at 1). Defendant’s detention hearing was held on September 12, 2018.
Both Cox and the Government were represented by counsel, and Magistrate Cherry heard evidence
and argument from both sides. Following the hearing, Magistrate Cherry entered his Order of
Detention. (ECF No. 16). Magistrate Cherry determined that the presumption of detention existed
due to the charge and that Cox had failed to rebut the presumption. {Id. at 2). Cox was further
found to pose a flight risk and a risk to the community. {Id.). Magistrate Cherry determined that
no condition, or combination of conditions, could assure the safety of the community or Cox’s

AflPeAfO x)C

USDC IN/ND case l:18-cr-00083-HAB-SLC document 146 filed 06/18/20 page 2 of 11

appearance in the future, basing his determination on several factors including Cox’s prior criminal
history and his multiple probation violations. {Id. at 2-3).
On October 31, 2019, Cox filed his pro se Motion for Pretrial Release (ECF No. 84).1 In
the Motion for Pretrial Release, Cox requested that the Court grant him pretrial release “based on
new evidence that did not exist at the time of the initial detention hearing which rebuts the
presumption that he is a flight risk or a danger to society.” {Id. at 1). Cox did not want a hearing
on the motion since “all facts and evidence are either already on the record or will be provided
forthwith.” {Id.). In summary, Cox argued that because he had ended his criminal conduct before
he was questioned by police, and because he did not flee following that questioning, he qualified
for pretrial release under 18 U.S.C. § 3142(a)(2). Cox also argued that, despite having violated the
terms of probation on an earlier state court case, he would not violate any terms of supervised
release the Court would impose.
The Government filed its Objection to Defendant’s Motion for Pretrial Release (ECF No.
85) on November 5, 2019. Relevant to this Opinion and Order, the Government argued that Cox’s
detention hearing could not be reopened under 18 U.S.C. § 3142(f)(2) because Cox had failed to
identify any information that “was not known to the movant at the time of the hearing.” (ECF No.
85 at 4; quoting 18 U.S.C. § 3142(f)(2) and citing United States v. Watson, 475 Fed. Appx. 598,
600 (6th Cir. 2012); United States v. Esposito, 354 F. Supp. 3d 354, 358-59 (S.D.N.Y. 2019)).
Instead, the Government argued that Cox sought to “relitigate the issue of detention by presenting
arguments based upon facts known to him at the time of his detention hearing.” (ECF No. 85 at
5).

1 This was the second time Cox filed the Motion for Pretrial Release, having initially filed it pro se while still
represented by counsel. (ECF No. 74). This initial filing was stricken by the Court. (ECF No. 77).

02

USDC IN/ND case l:18-cr-00083-HAB-SLC document 146 filed 06/18/20 page 3 of 11

Cox filed his pro se Response to Government's Objection (ECF No. 87) on November 1 3,
2019. Cox stated that he was not moving to reopen his detention hearing under § 3142(f)(2).
Instead, he argued that his Motion for Pretrial Release was an “appearance” for the purposes of §
3142(a) and, therefore, the Court could make a detention determination without requiring a
showing under § 3142(f)(2) of new information. Notably, Cox cited to no case law or other
authority in support of his interpretation of the statute.
Magistrate Judge Susan Collins issued her Opinion and Order denying the Motion for
Pretrial Release (ECF No. 94) on November 26, 2019. Magistrate Collins found Cox's
r

“appearance” argument unpersuasive, stating:
While § 3142(a) refers to a defendant's “appearance,” this obviously refers to when
the Court must make an order regarding detention. This point is bolstered by the
further restriction on when the Government can move for detention, as was the case
here, or when a court can raise the issue sua sponte. In other words, the section’s
reference to an “appearance” merely means that the judge must make an order
regarding the release or detention of the defendant when the defendant initially
“appears” or is physically present in the charging court, unless a party seeks a
continuance.
(Id. at 5) (citations omitted). Magistrate Collins then proceeded to analyze the Motion for Pretrial
Release under § 3142(f), ultimately concluding that Cox had “not shown that any of the
information considered in his motion is new or was unknown at the time of his initial hearing or
would be material to the issue of detention.” (ECF No. 94 at 11). Cox was advised to file a motion
pursuant to 18 U.S.C. § 3145(b) if he believed that the law was improperly applied at his original
detention hearing. (ECF No. 94 at 12).
Rather than heed Magistrate Collins’ advice, Cox filed a pro se Motion to Reconsider (ECF
No. 98) on December 9, 2019. While the Motion to Reconsider ran some sixteen pages, the
argument boiled down to a single assertion: “[t]he ordinary legal meaning of‘appearance’ includes
a motion to the court.” (ECF No. 98 at 5). After making this assertion (without any support), Cox

63

USDC IN/ND case l:18-cr-00083-HAB-SLC document 146 filed 06/18/20 page 4 of 11

argued that a plain reading of § 3142(a) “allows for a ‘person charged with an offense’ to make an
‘appearance before a judicial officer/ not limited to a one-time appearance or a detention hearing.
for the reconsideration of pretrial release.” (ECF No. 98 at 11). Cox cited to-no case law in support
of his interpretation, instead repeatedly pointing the Court to general statutory construction cases.
Magistrate Collins issued a one-page Order (ECF No. 101) on December 16, 2019, denying the
Motion to Reconsider on the bases set forth in her November 26, 2019, Opinion and Order (ECF
No. 94).
Cox then sought relief from this Court, filing what he described as a motion under §
3145(b) to review the Magistrate’s November 26, 2019, Opinion and Order, which Defendant
states was a “de facto detention order2 which opens it up for review and appeal.” (ECF No. 102 at
1). Incorporating his Motion to Reconsider in its entirety, Cox again argued that “a plain reading
of 18 USC 3142 [sic] actually does allow the Court to grant pretrial release without reopening the
detention hearing.” (ECF No. 102 at 2).
This Court denied that motion on January 31, 2020. (ECF No. 103). The Court concluded
that Cox’s interpretation of 18 U.S.C. § 3142 was at odds with the plain language of the statute
and any reasonable interpretation thereof. The Court also stated that, had it reached the merits of
Cox’s detention challenge, it saw “no reason to depart from the Order of Detention (ECF No. 16)
in this case.” (Id. at 7 n. 4). Cox appealed this Court’s order on February 12, 2020, (ECF No. 104),
and his appeal was denied on March 24, 2020. (ECF No. 118).
Having reached a dead end in his attempt to re-write the Bail Reform Act, Cox has now
taken Magistrate Collins’ advice and filed the instant motion under § 3145(b). Cox now argues

2 The Court finds no support for the concept of a “de facto detention order,” particularly where there is a de jure
detention order in the record. (ECF No. 16). Accordingly, this Court rejects Defendant’s invitation to review the
November 26, 2019, Opinion and Order of the magistrate under § 3145.

g4

USDC IN/ND case l:18-cr-00083-HAB-SLC document 146 filed 06/18/20 page 5 of 11

that he successfully rebutted the presumption of detention and, having done so, the conditions of
pretrial release he proposes will sufficiently assure his future appearance and the safety of the
public. The Government disagrees, arguing that Magistrate Cherry properly considered the
relevant factors in ordering Cox’s detention. (See, generally, ECF No. 139).
B.

Legal Discussion
Title 18 U.S.C. § 3145(b) permits a defendant to file a motion seeking review or revocation

of a detention order when the defendant has been “ordered detained by a magistrate judge, or by a
.. person other than a judge of a court having original jurisdiction over the offense and other than a
Federal appellate court [.]” Section 3145(b) does not require that new evidence or information be
available before a detention order can be reconsidered and revoked, id., and “[t]he standard of
review for the district court’s review of a magistrate judge’s detention . . . order ... is de novo.”
United States v. Cisneros, 328 F.3d 610, 616 n. 1 (10th Cir. 2003). “When the district court acts
on a motion to revoke or amend a magistrate’s pretrial detention order, the district court acts de
novo and must make an independent determination of the proper pretrial detention or conditions
for release.” United States v. Rueben, 974 F.2d 580, 585-86 (5th Cir. 1992); see alsp United States
v. Maull, 773 F.2d 1479, 1481 (8th Cir. 1985); United States v. Sallay, 2011 WL 1344288 at *4
(N.D. Ind. April 8, 2011); United States v. Stephens, 2007 WL 2164248 at *3 (N.D. Ind. July 25,
2007); United States v. Boxley, 2007 WL 79176 at * 1 (N.D. Ind. Jan.8, 2007); United Stales v.
McManus, 2006 WL 3833314 at *1 (N.D. Ind. Dec.5, 2006).
Nonetheless, a district court may review a magistrate’s detention order without holding a
new hearing. United States v. Bergner, 800 F.Supp. 659 (N.D. Ind. 1992) (citing United States v.
Gaviria, 828 F.2d 667, 670 (11th Cir. 1987); United States v. Phillips, 732 F.Supp. 255, 259 (D.
Mass. 1990)). “An evidentiary hearing is necessary only if the party requesting the hearing raises

5 5

USDC IN/ND case l:18-cr-00083-HAB-SLC document 146 filed 06/18/20 page 6 of 11
a significant disputed factual issue.” United States v. Sophie, 900 F.2d 1064, 1070 (7th Cir. 1990).
Neither party has requested a hearing, and there are no significant factual disputes which the court
would require a hearing to resolve. Accordingly, the court takes a fresh look at the issue of
detention without holding a new hearing, but with reference to the evidence presented at the one
held before the Magistrate Judge.
The Bail Reform Act ('‘BRA”) limits the circumstances under which a district court may
order pretrial detention. See United States v. Friedman, 837 F.2d 48, 49 (2d Cir. 1988). “When a
motion for pretrial detention is made, the court engages in a two-step analysis: first, the judicial
officer determines whether one of ten conditions exists for considering a defendant for pretrial
detention; second, after a hearing, the judicial officer determines whether the standard for pretrial
detention is met.” United States v. Thomas, 2011 WL 5386773 at *3 (S.D. lnd. Nov.7,2011) (citing
Friedman, 837 F.2d at 49). There is no doubt that one of the ten threshold conditions for
considering pretrial detention is met in this case. Cox is alleged to have committed a crime with
multiple minor victims, see 18 U.S.C. § 3142(f)(1)(E), and the government's proffer was sufficient
to demonstrate those allegations by a preponderance of the evidence. See Thomas, 2011 WL
5386773 at *3 (citing Friedman, 837 F.2d at 49; United States v. DeBeir, 16 F.Supp.2d 592, 595
(D. Md. 1998); United States v. Carter, 996 F.Supp. 260, 265 (W.D.N.Y. 1998)). The dispute,
then, is over whether the standard for pretrial detention is met.
“Pretrial detention is allowed only after the court holds a hearing and finds that ‘no
condition or combination of conditions will reasonably assure the appearance of the person as
required and the safety of any other person and the community 7” Miller v. Hastings, 87 Fed. Appx.
585, 586 (7th Cir. 2004) (citing 18 U.S.C. § 3142(e)). Detention may be based on a showing of
either dangerousness or risk of flight; proof of both is not required. United States v. Fortna, 769

B 6

USDC IN/ND case l:18-cr-00083-HAB-SLC document 146 filed 06/18/20 page 7 of 11

F.2d 243, 249 (5th Cir. 1985). The Government bears the burden of proving that the defendant is
either a flight risk or a danger to the community. United States v. Daniels, 772 F.2d 382, 383 (7th
Cir. 1985). With respect to reasonably assuring the safety of any other person and the community,
the United States bears the burden of proving its allegations by clear and convincing evidence. 18
U.S.C. § 3142(f); United Stales v. Salerno, 481 U.S. 739 (1987). Clear and convincing evidence
is something more than a preponderance of the evidence but less than proof beyond a reasonable
doubt. Addington v. Texas, 441 U.S. 418, 431-33 (1979). With respect to reasonably assuring the
appearance of the defendant, the United States bears the burden of proof by a preponderance of
the evidence. United States v. Portes, 786 F.2d 758,765 (7th Cir. 1985): United States v. Liebowitz,
652 F.Supp. 591,596 (N.D. Ind. 1987).
Furthermore, in this case, Congress has placed a statutory finger on the scale, weighing
against Cox. Pursuant to 18 U.S.C. § 3142(e)(3)(E), “[sjubject to rebuttal by the [defendant], it
shall be presumed that no condition or combination of conditions will reasonably assure the
appearance of the [defendant] as required and the safety of the community if the judic ial officer
finds that there is probable cause to believe that the [defendant] committed an offense involving a
minor victim under section ... 225!.[,]” “Probable cause is not proof beyond a reasonable doubt, or
even proof by a preponderance of the evidence.” Braun v. Baldwin, 346 F,3d 761, 766 (7th Cir.
2003). At the detention hearing before Magistrate Cherry, the government proffered sufficient
evidence for this court to conclude that there is probable cause to believe the defendant committed
the acts charged in the Indictment in violation of 18 U.S.C. § 2251 (a). As such, the § 3142(e)(3)(E)
. presumption that no condition or combination of conditions will reasonably assure the appearance
of the defendant or the safety of the community applies. Indeed, this point is undisputed.

b 7

USDC IN/ND case l:18-cr-00083-HAB-SLC document 146 filed 06/18/20 page 8 of 11
In the early days after the BRA was enacted, some confusion existed as to what quantum
of evidence the defendant had to present in order to '‘rebut" a § 3142(e) presumption. But that
confusion has long since been cleared up. In both United States v. Diaz, 111 F.2d 1236 (7th Cir.
1985), and United States v. Dominguez, 783 F.2d 702 (7th Cir. 1986), the Seventh Circuit
embraced the interpretation first offered by Judge (now Justice) Breyer of the First Circuit in
United States v. Jessup, 757 F.2d 378 (1st Cir.1985). A s the Seventh Circuit explained:
In Jessup, 757 F.2d at 381—84, the court correctly identifies the presumptions in §
3142(e) as being of the so-called “middle ground” variety; that is, they do not
disappear when rebutted, like a “bursting bubble” presumption, nor do they actually
shift the burden of persuasion to the defendant. They are “rebutted” when the
defendant meets a “burden of production” by coming forward with some evidence
that he will not flee or endanger the community if released. Once this burden of
production is met, the presumption is “rebutted” in the sense that word was used in
Jessup. Use of that word in this context is somewhat misleading because the
rebutted presumption is not erased. Instead it remains in the case as an evidentiary
finding militating against release, to be weighed along with other evidence relevant
to factors listed in § 3142(g). Jessup, 757 F.2d at 384. The burden of persuasion
remains with the government once the burden of production is met. Id. at 381-82.
Dominguez, 783 F.2d at 707. In other words, where a defendant can produce some evidence which.
if believed, would logically refute the assertion that he will flee or pose a danger to the community,
he has defeated the “presumption” in favor of detention. At least, he has defeated it to the extent
that it ceases to be dispositive and becomes just one more factor in the court's analysis. See Diaz,
111 F.2d at 1238 (explaining that even when it is rebutted, “[t]he presumption reflects a
congressional judgment, to which we are obligated to give weight, that person's facing heavy
sentences for particular types of offenses are likely to jump bail”). That said, “a defendant's desire
to be released from incarceration and his or her promise not to flee the jurisdiction is woefully
insufficient to rebut the presumption that persons facing very serious charges should remain
detained until those charges are resolved.” Stephens, 2007 WL 2164248 at *6. “If that were the

6 8

USDC IN/ND case l:18-cr-00083-HAB-SLC document 146 filed 06/18/20 page 9 of 11

case, then pretrial detention would be virtually nonexistent, since every criminal defendant would
present the court with an identical plea for release.” Id.
Cox's attempts to rebut the presumption that no condition or combination of conditions will
reasonably assure his appearance are. in some ways, strikingly similar to those the court found
“woefully insufficient” in Stephens. In that case, the defendant argued that he had roots in the
community, including seven biological children between the ages of 2 and 11, for whom he was
primarily responsible. He offered to submit to any conditions the court might deem proper and
argued that he had “no reason” to leave the jurisdiction. Id. at *3. In the case before the court, Cox
has argued that he has familial connections to the area; that he will submit to any conditions of
release (including internet monitoring); and that he had a good appearance record when on pretrial
release during previous state court prosecutions. (ECF No. 113 at 4-8). But Cox also points out
the fact that he didn’t flee the jurisdiction prior to being indicted and that he had prior success on
probation in Montgomery County. (Id. at 4-5).
In the end, the court need not decide whether Cox’s arguments—which strike the court as
at least marginally stronger than those made by the defendant in Stephens—are sufficient to rebut
the presumption created by § 3142(e)(3)(E). Even if they are, thus relegating the presumption to
its “rebutted” role as one factor among others, the court would still find by a preponderance of the
evidence that Cox poses a flight risk. The personal qualities Cox is touting—consistent
employment history, roots in the area, a history of making court dates—were exhibited before he
was facing a mandatory minimum fifteen-year sentence of imprisonment. It is no surprise that Cox
has no history of evading court dates or appearances; he has almost no experience with serious
charges. But that is no guarantee of how he will behave under these new-to-him circumstances.
Considering the statutory factors, the court observes that the crimes with which Cox is charged are

0 9

USDC IN/ND case l:18-cr-00083-HAB-SLC document 146 filed 06/18/20 page 10 of 11

very serious ones, with lengthy prison sentences, and were allegedly committed against multiple
minor victims. See 18 U.S.C. § 3142(g)(1). Furthermore, the case against Cox, while largely
circumstantial, appears to be a strong one; Cox appears to have essentially admitted his guilt during
his initial interaction with law enforcement. See § 3142(g)(2). All of this is colored by the fact that
Congress has made a considered judgment that defendants faced with crimes like Cox’s are more
likely to jump bail than others. See Diaz, 111 F.2d at 1238. This court finds by a preponderance of
the evidence that pretrial detention is necessary in this case to assure the appearance of Cox at
future court proceedings. Since detention may be based on a showing of either dangerousness or
risk of flight, Fortna, 769 F.2d at 249, this alone is reason enough to deny Cox’s motion.
Even if that were not enough, the court would deny Cox’s motion because he has
completely failed to rebut the presumption that no condition or combination of conditions would
ensure the safety of the community were he to be released. See § 3142(e)(3)(E). True, Cox does
nominally argue that he is not a danger to the community. But the only proof he offers is that he is
not accused of committing any crimes since the acts charged in the Indictment, which concluded
in April 2018. (ECF No. 84 at 5). That is not enough. The government has charged Cox with six
felony counts related to his alleged scheme of extorting sexually related materials from minors via
the internet. The government has substantiated the charges to the level required at this stage of a
criminal proceeding, and Congress has mandated (quite reasonably) that, provided that probable
cause is demonstrated, those who victimize minors are presumed to pose a danger to the
community. See § 3142(e)(3)(E). The court recognizes that Cox need only meet a burden of
production, not persuasion, to rebut that presumption. But surely Cox’s “Well, that's the only time
the government alleges that 1 used the internet to extort nude pictures from minors!” argument is
insufficient to rebut the presumption that he poses a danger to the community based on the nature

ft 10

USDC IN/ND case l:18-cr-00083-HAB-SLC document 146 filed 06/18/20 page 11 of 11

of his crime itself. If the court were to allow that sort of argument to carry the day. the presumption
would be a toothless one, indeed.
C.

Conclusion
For the foregoing reasons, Cox’s Motion for Revocation of Detention Order (ECF No. .136)

is DENIED.
SO ORDERED on June 18, 2020.
s! Holly A. Brady
JUDGE HOLLY A. BRADY
UNITED STATES DISTRICT COURT

& 11

USDC IN/ND case l:18-cr-00083-HAB-SLC document 16 filed 09/12/18 page 1 of 3
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
FORT WAYNE DIVISION
UNITED STATES OF AMERICA,

vs.

BRADLEY M. COX,
Defendant.

)
)
)
)
)
)
)
)
)
)

CAUSE NO.:

1:18-MJ-122

Hearing of:

09/12/2018

CHARGE:

Sexual Exploitation of Children
18 U.S.C. 2251(a)

ORDER OF DETENTION
After conducting a Detention Hearing under the Bail Reform Act, 18 U.S.C. § 3142(f), I conclude
that these facts require that the defendant be detained pending trial.

□

(1)

Part I—Findings of Fact
The defendant is charged with an offense described in 18 U.S.C. § 3142(f)(1) and has
previously been convicted of □ a federal offense □ a state or local offense that would
have been a federal offense if federal jurisdiction had existed - that is

□
□
□
□

a crime of violence as defined in 18 U.S.C. § 3156(a)(4)or an offense listed in 18
U.S.C. § 2332b(g)(5) for which the prison term is 10 years or more,
an offense for which the maximum sentence is death or life imprisonment,
an offense for which a maximum prison term of ten years or more is prescribed in
a felony committed after the defendant had been convicted of two or more prior
federal offenses described in 18 U.S.C. § 3142(f)(l)(A)-(C), or comparable state
or local offenses:
any felony that is not a crime of violence but involves:
□
a minor victim
□
the possession or use of a firearm or destructive device or any
other dangerous weapon
□
a failure to register under 18 U.S.C. § 2250

□

(2)

The offense described in finding (1) was committed while the defendant was on release
pending trial for a federal, state release or local offense.

□

(3)

A period of less than five years has elapsed since the □ date of conviction □ the
defendant’s release from prison for the offense described in finding (1).

□

(4)

Findings Nos. (1), (2) and (3) establish a rebuttable presumption that no condition will
reasonably assure the safety of another person or the community. I further find that the
defendant has not rebutted this presumption.

Insert as applicable: (a) Controlled Substances Act (21 U.S.C. § 801 et seq.)\ (b) Controlled Substances Import and Export Act (21
U.S.C. § 951 etseq.); or(c) Section 1 of Act of Sept. 15, 1980 (21 U.S.C. § 955a).

USDC IN/ND case l:18-cr-00083-HAB-SLC document 16 filed 09/12/18 page 2 of 3
Alternative Findings (A)
(1)

There is probable cause to believe that the defendant has committed an offense

□

for which a maximum prison term of ten years or more is prescribed in:

□
□
□

The Controlled Substances Act (21 U.S.C §801 et. seq.);or
The Controlled Substances Import And Export Act (21 U.S.C. §951 et.
seq.); or
The Maritime Drug Law Enforcement Act (46 U.S.C. App. §1901 et.
seq.); or

involving a minor victim under 18 U.S.C. §1201, 1591, 2241, 2242, 2244(a)(1),
2245, 2251, 2251 A, 2252(a)(1), 2252(a)(2), 2252(a)(3), 2252A(a)(l),
2252A(a)(2), 2252A(a)(3), 2252A(a)(4), 2260, 2421, 2422, 2423, or 2425; or

□
(2)

under 18 U.S.C. § 924(c), §956(a), or 18 U.S.C. §2332b

The defendant has not rebutted the presumption established by finding 1 that no
condition will reasonably assure the defendant’s appearance and the safety of the
community.
Alternative Findings (B)

(1)

There is a serious risk that the defendant will not appear.

(2)

There is a serious risk that the defendant will endanger the safety of another person or the
community.
Part II— Statement of the Reasons for Detention

I find that the testimony and information submitted at the Detention Hearing establishes by a
preponderance of the evidence that there is a serious risk that the defendant will not appear at a
future court hearing in this case, and there is no condition, or combination of conditions, that can
be imposed to assure his or her court appearance in this case in the future, because:
(1)

(2)

Of the nature and circumstances of the offenses charged;
The weight of the evidence against the defendant;

I find that the testimony and information submitted at the Detention Hearing establishes by clear
and convincing evidence that to release the defendant on pre-trial release will endanger the safety
of another person, or the safety of the community in general, and there is no condition, or
combination of conditions, that can be imposed to assure the safety of the other person or the
safety of the community in general, because:
(1)

(2)
(3)

Of the nature and circumstances of the offense charged;
The weight of the evidence against the defendant;
The defendant has a history of criminal activity including a juvenile history
involving charges in court of Child Exploitation and Possession of Child
Pornography and an adult history including, among other crimes, two
misdemeanor Battery convictions as lesser included offenses of charges that were
originally filed in court as Sexual Battery;

C2-

USDC IN/ND case l:18-cr-00083-HAB-SLC document 16 filed 09/12/18 page 3 of 3
(4)

(5)
(6)

While serving court supervision (probation) for the Clinton Circuit Court
(Indiana), the defendant violated the supervision by, among other things,
committing three Batteries two of which were originally charged as Sexual
Batteries;
While serving court supervision (probation and electronic monitoring) for the
Montgomery Superior Court (Indiana), the defendant committed some of the
sexual criminal acts alleged in the Criminal Complaint filed in this federal case;
Although the Criminal Complaint filed in this federal case focuses on one alleged
victim, the United States Attorney is aware of multiple victims of the defendant,
some in other jurisdictions, of similar acts by the defendant.

□

At the Detention Hearing the defendant stipulated to the serious risk that he or she would not
appear for further court hearings in this case and to the serious risk of danger to the safety of
another person or to the community in general if he or she would be released.

□

There is reserved for the defendant the right to later petition the Court, through his or her
attorney, to belatedly contest the detention issue.
The reasons for these findings include the contents of the Pre-Trial Services Report in this case.

Part HI—Directions Regarding Detention
The defendant is committed to the custody of the Attorney General or a designated representative
for confinement in a corrections facility separate, to the extent practicable, from persons awaiting or
serving sentences or held in custody pending appeal. The defendant must be afforded a reasonable
opportunity to consult privately with defense counsel. On order of a United States Court or on request of
an attorney for the Government, the person in charge of the corrections facility must deliver the defendant
to the United States Marshal for a court appearance.
Entered this 12th day of September, 2018.
/s / Paul R. Cherry
PAUL R. CHERRY
MAGISTRATE JUDGE
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
AO Form 472 (Rev. 09/08) (PRC Modified 02/16)

PS3 (Rev.4£/JBfr IN/ND Case 1:18'cr"00083'HAB'SLC document 13 %adfeyU°(^o8 /

As provided by 18 U.S.C. §3153 and the General Order for the Northern District of Indiana, the Pretrial Services Report is to remain a
confidential document. A copy of this report and any supplemental Pretrial Report(s) shall be provided to the defense counsel and the
government with the understanding that (a) the report shall not be copied, (b) the report is not a public record, (c) the contents of this report
and supplemental Pretrial Report(s) may not be disclosed to unauthorized individuals and (d) the report and any supplements shall be used
only for the purposes of a bail determination and shall otherwise be confidential.

PRETRIAL SERVICES REPORT
District/Office

Charge(s) (Title, Section, and Description)

Northern District Of Indiana/Fort Wayne
Count 1: Title 18 U.S.C. § 2251(a) - SEXUAL
EXPLOTATION OF CHILDREN

Judicial Officer

The Honorable Paul R. Cherry
United States District Court Magistrate Judge
Docket Number (Year - Sequence No. - Def. No.)

0755 1:18-00122MJ-001

DEFENDANT
Name

Employer/School

Cox, Bradley M.

Bums Constmction

Address

Employer/School Address

3300 Susan Drive
Kokomo, IN 46902

6676 South Old US Highway 31
Macy, IN 46951

At Address Since

Time in Community of Residence

Monthly Income

Time with Employer/School

07/01/2017

4 years____________

$1,800

2 years, 3 months

INTRODUCTION:
The defendant is scheduled to appear before Your Honor on September 12, 2018 for a Probable Cause and
Detention Hearing.
This officer interviewed the defendant on September 7, 2018, in the United States Marshalls Office, located in
Fort Wayne, and verified his personal information with his girlfriend, Katelyn Shanks. Additional information
was received from national, State, and Local criminal records.
DEFENDANT HISTORY / RESIDENCE / FAMILY TIES:
The defendant, age 28, was boring in Kokomo, Indiana to Genieveve and Terry Cox. The defendant maintains
weekly contact with his parents who reside in Frankfurt, IN. The defendant does not have any siblings.
Mr. Cox has resided in Kokomo for the past four years. Prior to him moving to Kokomo, he resided in Frankfurt
with his parents. The defendant currently resides with his girlfriend Katelyn Shanks, his girlfriend’s mother
Renee Shanks, and his four children. If the defendant were to be released, he would return to the above listed
address. If the defendant were to return to the above address, he would have daily contact with minor children.

Page 1

PS3 (Rev.^f/Pir IN/ND case l;18-cr-00083-HAB-SLC document 13 f'feadfeyU°<^ox, / (B§9?:fS-8f)ti2MJ-001
The defendant was previously in a relationship with Stevie Martin. His relationship with Ms. Martin produced
one child: Liliana Martin, 5. For the past six years, the defendant has been in a relationship with Katelyn
Shanks. His relationship with Ms. Shanks, produced three children: Jonah Cox, 5; Silas Cox, 3; and Korra Cox,
10 months.
Mr. Cox obtained his General Equivalency Diploma (GED) in 2011 from Lafayette Adult Resource Academy,
Lafayette, IN. After obtaining his GED, he attended Indiana University, Kokomo (IU-Kokomo). He graduated
from IU-Kokomo in 2017 with a bachelor’s degree in Accounting.
The defendant reported he does not have a U.S. passport and has never traveled outside of the United States.
EMPLOYMENT HISTORY / FINANCIAL RESOURCES:
Employed/Unemployed History:
Start
Date
05/19/2016

End
Date

Employer Name/
Unemployed
Bums Construction

06/01/2015

12/01/2015

Hem Construction

12/01/2014

06/01/2015

Syndicate Sales

Address
6676 S. Old US
Highway 31
Macy, IN 46951
816 Millbrook Lane
Kokomo, IN 46901
2025 N. Wabash Street
Kokomo, IN 46901

Time in Status/
Monthly
Hours a Week
Income
$1,800.00 2 years, 3 months/
$0.00 40.00
$2,166.67 6 months /40.00
$1,733.33

6 months /40.00

The defendant does not know if he will be able to return to his position at Bums Construction, if he is released.
Finances:
Monthly Income
Salary

Amount
Expenses
$1,800.00 Home/Mortgage
Utilities
Groceries and Supplies
Credit Card Minimum
Payments

Total
Estimated Monthly Cash Flow: $222

$1,800 Total

HEALTH:
Physical Health:
Mr. Cox has no significant physical health problems.

Page 2

0T~

Amount
$792.00
$236.00
$250.00
$300.00

$1,578

PS3 (Rev.4.?^ IN/ND case l:18-cr-00083-HAB-SLC document 13 ^9^0,418, flSSfMtWooi
Mental Health:
There is no evidence to suggest the defendant has a current or past mental health condition.
During the Initial Appearance, the defendant advised the Court that he did not have any mental health condition
that would affect his ability to understand the court proceedings.
Substance Abuse History
The defendant first consumed alcohol at the age of 16. He last consumed alcohol approximately seven years
ago. Mr. Cox experimented with marijuana when he was 16. He advised that he has never participated in a
substance abuse treatment program.
PRIOR RECORD:
The defendant reported. A criminal record check conducted through the National Crime Information Center
(NCIC), state, and local records revealed the following arrest history.
Date of
Arrest
02/25/2004
(Age 13)

Agency

Charge

Disposition

Unknown

Ct. 1: Child Exploitation;
Ct. 2: Possession of Child
Pornography; Clinton
County Circuit Court; Case
No.: Unknown; Frankfort,
IN

02/25/2004: Placed on
Informal Probation for 6
months.
02/01/2005: Released from
probation.

The above arrest date reflects the date the defendant was placed on probation.
07/10/2008
(Age 18)

Clinton County Sheriffs
Department; Frankfurt, IN

Ct. 1: Burglary;
Ct. 2: Residential Entry;
Ct. 3: Theft;
Ct. 4: Unauthorized Entry
of a Motor Vehicle;

02/02/2009: Ct. 1: 12 years
Indiana Department of
Correction (IDOC) with four
years suspended to probation.
Ct. 2: 2 years IDOC, executed.

Ct. 5: Unauthorized Entry
of a Motor Vehicle;
Ct. 6: Burglary;
Ct. 7: Auto Theft; Clinton
County Circuit Court; Case
No.: 12C01-0807-FB-185;
Frankfort, IN

08/12/2014: Petition to Revoke
Probation filed.
09/25/2015: Admits violation.
90 days IDOC. Probation
extended for 705 days.
11/01/2017: Successfully
released from probation.

Page 3

PS3 (RevW IN,ND case l:18-Cr-00083-HAB-SLC document 13 ffe!iPe^OcSx8,/(m9!:flS6fe2MJ-001
The Petition to Revoke Probation filed on August 12, 2014, indicates the defendant violated his probation by
committing additional criminal offenses and failing to complete a Court ordered program.

08/06/2014
(Age 24)

Montgomery County
Sheriffs Department;
Crawfordsville, IN

Ct. 1: Sexual Battery;
Ct. 2: Sexual Battery;
Ct. 3: Battery;
Ct. 4: Battery;
Ct. 5: Battery;
Montgomery County
Superior Court; Case No.:
54D01-1407-F6-002281;
Crawfordsville, IN

11/09/2015: Ct. 1: 180 days
Montgomery County Jail
(MCJ), all suspended. Ct. 2:
180 days MCJ, all suspended.
Ct. 4: 180 days MCJ, all
suspended. Placed on
probation for 538 days.

04/09/2018: Released from
probation.
The defendant was under probation supervision in Case No.: 12C01-0807-FB-185, when he committed the
above offenses.

ASSESSMENT OF NONAPPEARANCE:
The defendant poses a risk of nonappearance for the following reasons:
1. Offense Charged and/or Defendant's Conduct During Arrest for Instant Offense
ASSESSMENT OF DANGER:
The defendant poses a risk of danger for the following reasons:
1.
2.
3.
4.

Nature of Instant Offense
Prior Arrests and Convictions
Pretrial, Probation, Parole, or Supervised Release Status and Compliance
Pattern of Similar Criminal Activity History

RECOMMENDATION:
There is no condition or combination of conditions to reasonably assure the safety of the community. Therefore,
I respectfully recommend the defendant be detained.
However, should the Court order the defendant be released, I respectfully recommend the defendant be released
with the following conditions:
1. The defendant must not violate federal, state or local law while on release.
2. The defendant must cooperate in the collection of a DNA sample if it is authorized by 42 U.S.C.
§ 14135a.

Page 4

OH

PS3 (Rev^f/ft^ *N^ND case l:18-cr-00083-HAB-SLC document 13 %adfey^°<^x, / (R?9?:ft5i&2Mj-001

3. The defendant must advise the court or pretrial services office or supervising officer in writing before
making any change of residence or telephone number.
The defendant must appear in court as required and, if convicted, must surrender as directed to serve a
sentence that the court may impose.
4. The defendant must:
a. Submit to supervision by and report for supervision to the US Pretrial Services Officer.
b. Continue or actively seek employment.
c. Abide by the following restrictions on personal association, resident or travel: Remain in and do
not depart from the Northern District of Indiana without permission from the Pretrial Services
Officer.
—
d. Avoid all contact, directly or indirectly, with any person who is or may be a victim or witness in
the investigation or prosecution.
e. Not use alcohol () at all (X) excessively.
f. Not use or unlawfully possess a narcotic drug or other controlled substances defined in 21 U.S.C
§ 802, unless prescribed by a licensed medical practitioner.
g. Participate in one of the following location restriction programs and comply with its
requirements as directed ii. Home Detention: You are restricted to your residence at all times
except for employment; education; religious services; medical, substance abuse, or mental health
treatment; attorney visits; court appearances; court-ordered obligations; or other activities
approved in advance by the pretrial services office or supervising officer; (X ) You must pay all
or part of the cost of the program based on your ability to pay as determined by the pretrial
services office or supervising officer.
h. Report, as soon as possible, to the pretrial services officer or supervising officer, every contact
with law enforcement personnel, including arrests, questioning, or traffic stops.
i. Not possess nor operate any device with internet access without the approval of the Pretrial
Services Officer.
j. No unsupervised contact with minors.
Should the defendant be released, the Amended Bail Reform Act under 18 U.S.C. § 3142(c)(1)(b) requires a
statutory condition of Electronic Monitoring, as well as the following conditions:
1. Abide by specified restrictions on personal associates at the place of abode or travel
2. Avoid all contact with alleged victim(s) of the crime and potential witness(es) who may testify
concerning the offense.
3. Report on a regular basis to a designated law enforcement agency, pretrial services agency, or other
agency.
4. Comply with a specified curfew.
5. Refrain from possession of a firearm, destructive device, or other dangerous weapons.
Pretrial Services Officer

Date

Time

Gregory J. Coleman, United States Probation Officer

09/10/2018

1:00 pm

Reviewed By

Robert C. Brubaker, Supervising United States Probation Officer

Page 5

05

Additional material
from this filing is
available in the
Clerk's Office.

